No. 21-_______
IN THE
SUPREME COURT OF THE UNITED STATES
JANICE DICKINSON,
Petitioner,
v.
RYAN SEACREST PRODUCTIONS, INC., ET AL.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI
Edward M. Anderson
Counsel of Record
Regina Yeh
ANDERSON YEH PC
401 Wilshire Boulevard, 12th Floor
Santa Monica, CA 90401
(310) 496-4270
edward@andersonyehlaw.com

i
QUESTION PRESENTED
Defamatory speech – or in the case of public
figures, defamatory speech made with actual malice –
has long been established as speech that is outside the
protections of the First Amendment, under New York
Times Co. v. Sullivan, 376 U.S. 254 (1964) and its
progeny.
The question presented here is:
Whether a defendant who willfully creates a
false narrative about a public figure that is marketed
to the public as a true story, for the intentional
purpose of misappropriating the public figure’s
famous mark and goodwill to market and promote a
reality television program, is entitled to the benefits
of the First Amendment-based defense of Rogers v.
Grimaldi, 875 F.2d 994 (2d Cir. 1989) and other First
Amendment-based defenses to the public figure
plaintiff’s Lanham Act claims, where the defendant’s
speech about the plaintiff was defamatory speech
made with actual malice?

ii
PARTIES TO THE PROCEEDING
Janice Dickinson is Petitioner here and was
Plaintiff-Appellant below.
Ryan Seacrest Productions, LLC; Truly
Original,
LLC;
Suns
Productions,
LLC;
NBCUniversal Media, LLC; Tess Cannon; and Erik
Rosette aka Erik Rosete aka Mister Triple X are
Respondents here and were Defendants-Appellees
below.

iii
TABLE OF CONTENTS
QUESTION PRESENTED.......................................... i
PARTIES TO THE PROCEEDING ........................... ii
PETITION FOR A WRIT OF CERTIORARI .............1
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS ......................................1
INTRODUCTION ........................................................2
STATEMENT ............................................................ 10
I.

The First Amendment and New York Times Co.

v. Sullivan .............................................................. 10
II.

The Lanham Act ........................................... 11

III.

The Rogers Test ............................................ 13

IV.

Factual Background ..................................... 16

V.

Proceedings Below........................................ 18

REASONS FOR GRANTING THE PETITION ....... 21
I.

The Question Presented is Exceptionally

Important ............................................................... 21
II.

The Ninth Circuit Erred in Holding that

Courts Do Not Need to Consider the Presence of
Defamatory Speech Made with Constitutional
Actual Malice in Considering the Rogers Test...... 22

iv
III.

This Case is a Particularly Suitable Vehicle

for Resolving the Question Presented ................... 25
CONCLUSION .......................................................... 29
APPENDIX
APPENDIX A ............................................................ 1a
APPENDIX B ............................................................ 6a

v
TABLE OF AUTHORITIES
Cases
Cardtoons, L.C. v. Major League Baseball Players
Ass’n,
95 F.3d 959 (10th Cir. 1996) ..................................... 27
Chaplinsky v. New Hampshire, 315 U.S. 568 (1942)
..................................................................................7
Dickinson v. Ryan Seacrest Enters. Inc.,
839 F.App’x 110 (9th Cir. 2020)......................... 6, 20
Eastland Music Grp., LLC v. Lionsgate Entm’t, Inc.,
707 F.3d 869 (7th Cir. 2013) .................................. 27
Eastwood v. Nat'l Enquirer, Inc.,
123 F.3d 1249 (9th Cir. 1997) ................................ 15
ETW Corp. v. Jireh Pub., Inc.,
332 F.3d 915 (6th Cir. 2003) ............................ 15, 28
Facenda v. N.F.L. Films, Inc.,
542 F.3d 1007 (3d Cir. 2008) ................................. 27
Fortune Dynamic, Inc. v. Victoria’s Secret Stores
Brand Mgmt., Inc.,
618 F.3d 1025 (9th Cir. 2010) ................................ 11
Gordon v. Drape Creative, Inc.,
909 F.3d 247 (9th Cir. 2018) ...................... 14, 23, 24
Hoffman v. Capital Cities/ABC, Inc.,

vi
255 F.3d 1180 (9th Cir. 2001) ................................ 15
Mattel, Inc. v. MCA Recs., Inc.,
296 F.3d 894 (9th Cir. 2002) ................ 13, 14, 23, 24
Mattel, Inc. v. Walking Mountain Prods.,
353 F.3d 792 (9th Cir. 2003) .................................. 13
Mut. of Omaha Ins. Co. v. Novak,
836 F.2d 397 (8th Cir. 1987) .................................. 27
New York Times Co. v. Sullivan,
376 U.S. 254 (1964) ................................ 3, 10, 11, 25
Parks v. LaFace Recs.,
329 F.3d 437 (6th Cir. 2003) .................................. 25
Polaroid Corp. v. Polarad Elec. Corp.,
287 F.2d 492 (2d Cir.), cert. denied, 368 U.S. 820
(1961) ...................................................................... 28
Radiance Found., Inc. v. N.A.A.C.P.,
786 F.3d 316 (4th Cir. 2015) ............................ 15, 28
Rogers v. Grimaldi,
875 F.2d 994 (2d Cir. 1989) ........................... passim
Twentieth Century Fox Television v. Empire Distrib.,
Inc.,
875 F.3d 1192 (9th Cir. 2017) .......................... 13, 28
Twin Peaks Prods., Inc. v. Publications Int'l, Ltd.,
996 F.2d 1366 (2d Cir. 1993) ................................. 28

vii
Univ. of Ala. Bd. of Trustees v. New Life Art, Inc.,
683 F.3d 1266 (11th Cir. 2012) ........................ 16, 28
Wendt v. Host Int'l, Inc.,
125 F.3d 806 (9th Cir. 1997) .................................. 12
Westchester Media v. PRL USA Holdings, Inc.,
214 F.3d 658 (5th Cir. 2000) ............................ 15, 28
Statutes
15 U.S.C. § 1125(a) ................................................ 1, 12
15 U.S.C. § 1125(a)(1)(A) .................................... 12, 18
15 U.S.C. § 1125(a)(1)(B). ................................... 13, 18
15 U.S.C. § 1125(c) ......................................................2
28 U.S.C. § 1254(1) ......................................................1
Cal. Bus. & Prof. Code § 17200 ................................. 18
Other Authorities
Anthony Zangrillo, The Split on the Rogers v.
Grimaldi Gridiron: An Analysis of Unauthorized
Trademark Use in Artistic Mediums, 27 Fordham
Intell. Prop. Media & Ent. L.J. 385 (2017),
available at
https://ir.lawnet.fordham.edu/iplj/vol27/iss2/5 ..... 31
Edvinas Meskys, Julija Kalpokiene, Paulius Jurcys,
and Aidas Liaudanskas, Regulating Deep Fakes:
Legal and Ethical Considerations (December 2,

viii
2019), available at
https://ssrn.com/abstract=3497144 ....................... 26
Eriq Gardner, Deepfakes Pose Increasing Legal and
Ethical Issues for Hollywood, The Hollywood
Reporter (July 12, 2019),
https://www.hollywoodreporter.com/business/busin
ess-news/deepfakes-pose-increasing-legal-ethicalissues-hollywood-1222978/ .................................... 25
Initiatives to Counter Fake News in Selected
Countries, The Law Library of Congress, Global
Legal Research Directorate (April 2019), available
at https://www.loc.gov/law/help/fake-news/counterfake-news.pdf ......................................................... 25
Treatises
J. Thomas McCarthy, MCCARTHY ON TRADEMARKS
AND UNFAIR COMPETITION

(5th ed.) (Mar. 2021

Update) ....................................................... 11, 12, 15
Michael Laundau, LINDEY ON ENTERTAINMENT, PUBL.
& THE ARTS (3d ed.) (April 2021 Update) .............. 10
Constitutional Provisions
U.S. CONST. amend. I. ........................................... 1, 11

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Janice Dickinson petitions for a writ
of certiorari to review the judgment of the U.S. Court
of Appeals for the Ninth Circuit in No. 19-55415.
OPINIONS BELOW
The opinion of the Ninth Circuit (Pet. App. 1a)
is unpublished. The relevant order of the district
court (Pet. App. 2a) is unpublished.
JURISDICTION
The Ninth Circuit issued its opinion on
December 21, 2020. Pet. App. 1a. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
United States Constitution, amendment I
provides: “Congress shall make no law . . . abridging
the freedom of speech, or of the press . . . ”
15 U.S.C. § 1125(a) provides, in relevant part:
“(1) Any person who, on or in connection with any
goods or services, or any container for goods, uses in
commerce any word, term, name, symbol, or device, or
any combination thereof, or any false designation of
origin, false or misleading description of fact, or false
or misleading representation of fact, which— (A) is
likely to cause confusion, or to cause mistake, or to
deceive as to the affiliation, connection, or association

2
of such person with another person, or as to the origin,
sponsorship, or approval of his or her goods, services,
or commercial activities by another person, or (B) in
commercial advertising or promotion, misrepresents
the nature, characteristics, qualities, or geographic
origin of his or her or another person’s goods, services,
or commercial activities, shall be liable in a civil action
by any person who believes that he or she is or is likely
to be damaged by such act.”
15 U.S.C. § 1125(c) provides, in relevant part:
“Subject to the principles of equity, the owner of a
famous mark that is distinctive, inherently or through
acquired distinctiveness, shall be entitled to an
injunction against another person who, at any time
after the owner’s mark has become famous,
commences use of a mark or trade name in commerce
that is likely to cause dilution by blurring or dilution
by tarnishment of the famous mark, regardless of the
presence or absence of actual or likely confusion, of
competition, or of actual economic injury.”
INTRODUCTION
Should defendants who intentionally create a
false narrative about a public figure and who then
market it to the public as a true story, for the
premeditated purpose of misappropriating the public
figure’s famous mark and goodwill to promote a
reality television program, be entitled to claim the
benefits of the First Amendment-based defense of
Rogers v. Grimaldi, 875 F.2d 994 (2d Cir. 1989) and
other First Amendment-based defenses to the public

3
figure plaintiff’s Lanham Act claims, where the
defendants’ speech about the plaintiff was defamatory
speech made with actual malice?
The answer should be “no.” Defamatory speech
– or at least false, defamatory speech made with
actual malice, with respect to public figures – has long
been established as speech that is outside the
protections of the First Amendment, under New York
Times Co. v. Sullivan, 376 U.S. 254 (1964) (“New York
Times v. Sullivan”) and its progeny. Accordingly, such
defamatory speech made with actual malice should
not and would not be constitutionally protected by the
First Amendment against Lanham Act claims, and it
is not when either the First Amendment law or
Lanham Act law are examined independently.
However, the result is inexplicably different
when the First Amendment and the Lanham are
balanced against each other. When defamatory
speech made with actual malice is made in the context
of a work of artistic expression such that a court
applies the balancing test first set forth in Rogers v.
Grimaldi, 875 F.2d 994 (2d Cir. 1989) (“Rogers”, and
the test, “Rogers test”), it somehow paradoxically
becomes protected by the First Amendment, as the
District Court and the Ninth Circuit Court of Appeals
both found in the present action. This can only be true
if the actual malice doctrine is completely ignored in
the context of marketing and promotion of a work of
artistic expression – an idea not taught by a single
case at any level, as far as Petitioner is aware.

4
In 2017, Defendants, who include the producers
of the reality television series Shahs of Sunset
manipulated actual footage they took of Petitioner,
legendary supermodel Janice Dickinson participating,
at a charity fashion show. Defendants’ surreptitious
footage made it appear as if Dickinson sabotaged that
the runway appearance of another model – one of the
actors on Shahs of Sunset – by stealing the outfit
intended for her. Defendants also caused the series’
actors to make intentionally false statements that
Dickinson had stolen the outfit and was in a heated
dispute with a series lead actor about the incident to
the disruption of the charity event. None of the
foregoing narrative actually occurred; in fact,
Dickinson had virtually no interaction with or even
awareness of the series’ actors.
Defendants
accomplished the false narrative by strategic editing
and re-contextualizing – filming scripted scenes with
other actors, and then interspersing real footage of
Dickinson within those fictional scenes. In other
words, the producers created a “cheap fake.” 1 Using
these techniques, Defendants crafted a false,
defamatory narrative of Dickinson purportedly
stealing from another model at a charity event,
As opposed to a “deep fake,” in which artificial intelligence (AI)
technology is used to generate digitally created human faces,
bodies, or voices. See Britt Paris and Joan Donovan, DeepFakes
and Cheap Fakes, Data & Society (Sept. 18, 2019),
https://datasociety.net/wpcontent/uploads/2019/09/DS_Deepfakes_Cheap_FakesFinal-11.pdf (discussing history of manipulation of audio and visual
evidence and difference between “deepfakes” and “cheap fakes”).
1

5
leading to a dispute with the other model and
disruption of the event. Defendants then distributed
this false narrative on cable television and other
platforms, and also used the false narrative in
advertising.
Some or all of the Defendants
intentionally marketed the narrative as a true story
in the nature of news, and a substantial segment of
the public in fact believed the narrative and shunned
Dickinson as a result. Some of Defendants’ specific
advertising and promotions of the series consisted
virtually entirely of defamatory speech about
Dickinson made with actual malice.
In 2018, Dickinson brought suit, alleging that
Defendants’ conduct violated her rights in her
celebrity, which is protected under the Lanham Act.
Dickinson further alleged, and Defendants did not
dispute, that they intentionally manipulated the
footage of her to promote and sell the episode in a
series that they represent as a “reality” show,
meaning a true story. Instead, Defendants argued
that their speech was part of an expressive work
protected under Rogers, regardless of the falsity of
their speech, and that New York Times v. Sullivan had
no place at all in the Rogers test. The district court
agreed with the Defendants, dismissing Dickinson’s
Lanham Act claims with prejudice.
Dickinson
appealed, including on the issue of whether
Defendants needed to establish, as an initial matter,
that their speech was protected speech under the First
Amendment where it was undisputedly defamatory
speech about Dickinson made with actual malice. In

6
affirming the district court ruling, the Ninth Circuit
failed to address actual malice expressly, but
necessarily implicitly held that actual malice plays no
part in Rogers analysis. The Ninth Circuit wrote that
“[d]espite Dickinson’s contrary arguments, the only
requirement for application of Rogers is that ‘the
[Appellees] . . . make a threshold legal showing that
[their] allegedly infringing use [was] part of an
expressive work protected by the First Amendment.”
Dickinson v. Ryan Seacrest Enters. Inc., 839 F.App’x
110 (9th Cir. 2020) (emphasis in original, citations
omitted). The Ninth Circuit then held that, because
the episode itself was an “expressive work,” “Appellees
made the threshold legal showing.” Id.
The Ninth Circuit’s analysis is erroneous. That
a work is “expressive” does not end the inquiry as to
whether it is entitled to First Amendment protections,
because it is legally possible for an expressive work to
contain speech not protected by the First Amendment,
such as when the speech is defamatory and made with
actual malice. Indeed, many or even most of the
seminal cases regarding defamation and the actual
malice doctrine involved speech that was part of an
expressive work. If the Ninth Circuit’s reasoning is
correct, the Rogers test has effectively overwitten the
actual malice doctrine in the Lanham Act context
where an underlying work being marketed otherwise
in violation of the Lanham Act is an “expressive
work.” This does not appear to be true in any other
context. To the contrary, it has long been recognized
that speech falling into “well-defined and narrowly

7
limited” exceptions to the First Amendment is not
entitled to constitutional protection, see, e.g.,
Chaplinsky v. New Hampshire, 315 U.S. 568, 571
(1942), and defamatory speech made with actual
malice is undoubtedly one of them.
Abandoning long-established and fundamental
First Amendment jurisprudence in favor of the facile
analysis of the Rogers test leads to absurd results. For
instance, in her last operative complaint, Dickinson
had also asserted a defamation claim under California
law against Defendants. Her Lanham Act claims
were dismissed on the basis that Defendants’ First
Amendment rights overrode her trademark interests;
however, it would be possible at the same time for
Dickinson to continue pursuing her state law
defamation claim and prevail under the undisputed
facts as pled, establishing that Defendants have no
First Amendment rights in that same speech.
The problematic application of Rogers test also
extends beyond the circumstances of Dickinson’s case.
Defamation law protects individuals from having
their lives or livelihoods injured because of untrue
statements made against them. The Lanham Act
provides similar protections for companies and brands
– and in the case of celebrities, their identities – as a
property right. Moreover, the Lanham Act also
strongly protects the public’s right not to be deceived
by false advertising and confusing marketing – the
consuming public has a right not to be told that
something is a true story in the nature of news when
in fact it isn’t, when it comes to how the public makes

8
its consumption decisions about media. In our modern
media landscape where the line between news and
entertainment has become increasingly blurred,
where deepfake technology enables the manipulation
of individuals’ likenesses to the point where it can be
impossible to tell real from altered; and where “fake
news” threatens the integrity and reputation of not
only individuals and businesses but also fundamental
institutions of society, it is critical that any First
Amendment balancing test not entirely throw out
defamation jurisprudence, especially not in the
Lanham Act context.
Our entire society
fundamentally relies on the public being able to
discern accurately what media stories are being held
out as depictions of true events and which are fictional
narratives. If Defendants can create and market an
intentionally false and defamatory narrative as a
truthful news story to advance the marketing of
fictional programming without any risk of any
Lanham Act liability, then a fundamental purpose of
the Lanham Act will be eroded and the ability of the
public to rely on the information they receive in the
media and the decisions that they make about that
information will be threatened, with no corresponding
social gain.
The Ninth Circuit’s erroneous use of the Rogers
test as a balancing test for First Amendment rights
and Lanham Act rights therefore warrants review.
The Ninth Circuit’s decision creates a nearly
insurmountable First Amendment defense for willful
creators of fake news as a marketing tool for the

9
intentional misappropriation of the goodwill of a party
with no meaningful connection with the media
product in question, as occurred case. The decision
thus demonstrates the limitations of the Rogers test
and how its application can contravene longstanding
First Amendment law. Moreover, given that the
various approaches among the circuits regarding how
to balance of First Amendment rights against
trademark rights – with some circuits expressly
rejecting the Rogers test – there is a need for this
Court to reconcile the inconsistent circuit approaches
by articulating the extent to which trademark rights
should yield to free expression. This is especially true
where that expression involves defamatory speech
made with actual malice, and that was intentionally
marketed by the defendants to the public as a true
story.
The petition for certiorari should therefore be
granted.

10
STATEMENT
I.

The First Amendment and New York
Times Co. v. Sullivan

The First Amendment provides: “Congress
shall make no law … abridging the freedom of speech,
or of the press.” U.S. CONST. amend. I. “The First
Amendment, however, does not encourage or protect
all creative expression in all situations.” Michael
Laundau, 1A LINDEY ON ENTERTAINMENT, PUBL. &
THE ARTS § 4:1 (3d ed.) (April 2021 Update) (“LINDEY”)
(emphasis added). “Defamatory material . . . may,
within certain constitutional limitations, lead to
liability for damages suffered by individuals.” Id. For
public figures like Dickinson, the line between First
Amendment-protected defamatory speech, and
defamatory speech not protected by the First
Amendment, is actual malice.
Over 50 years ago, this Court in New York
Times Co. v. Sullivan, 376 U.S. 254 (1964) (“New York
Times v. Sullivan”) fundamentally changed much of
the common law on defamation, by applying
constitutional principles to it. 1A LINDEY § 4:5. New
York Times v. Sullivan held that the First
Amendment extended to some types of false speech, at
least where public figures are concerned. New York
Times v. Sullivan specifically required a heightened
standard before First Amendment protection
dissolved for false speech about a public figure – but
that at some point the First Protection still
nonetheless does dissolve: “a federal rule that

11
prohibits a public official from recovering damages for
a defamatory falsehood relating to his official conduct
unless he proves that the statement was made with
‘actual malice’.” New York Times v. Sullivan, 376 U.S.
at 279-80 (emphasis added).
New York Times v. Sullivan thus draws a line
between 1) defamatory speech about a public figure
that is nonetheless still protected by the First
Amendment (even though it is defamatory speech and
thus otherwise would not be protected), and 2)
defamatory speech about a public figure that is not
protected by the First Amendment.
II.

The Lanham Act

In 1946, Congress enacted the Lanham Act,
which “creates a comprehensive framework for
regulating the use of trademarks and protecting them
against
infringement,
dilution,
and
unfair
competition.” Fortune Dynamic, Inc. v. Victoria’s
Secret Stores Brand Mgmt., Inc., 618 F.3d 1025, 1030
(9th Cir. 2010); J. Thomas McCarthy, MCCARTHY ON
TRADEMARKS AND UNFAIR COMPETITION § 5:4 (5th ed.)
(Mar. 2021 Update) (“MCCARTHY”). The Act’s two
underlying purposes are to ensure that (1) “owners of
trademarks can benefit from the goodwill associated
with their marks” (i.e., protecting the mark owner’s
property interest from misappropriation) and (2)
“consumers can distinguish among competing
producers.” (i.e., protecting consumers from
confusion). Fortune Dynamic, 618 F.3d at 1030.

12
The Lanham Act’s § 43(a), codified at 15 U.S.C.
§ 1125(a), is the federal source for two major and
distinct types of “unfair competition” claims: (1)
infringement of registered and also unregistered
marks, names, and trade dress (“false endorsement”);
and (2) “false advertising.” 5 MCCARTHY § 27:12.
These two “prongs” of § 43(a) developed separately
and have achieved their own subset of substantive
rules.
Lexmark Intern., Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377, 1384 (2014).
The trademark infringement or “false
endorsement” prong at § 43(a)(1)(A) protects the
public’s interest in being free from consumer
confusion about affiliations and endorsements. 15
U.S.C. § 1125(a)(1)(A). A false endorsement claim is
available to a celebrity where defendants’ conduct has
allegedly created “a likelihood of confusion as to
whether plaintiffs were endorsing [defendants’]
product.” Wendt v. Host Int'l, Inc., 125 F.3d 806, 812
(9th Cir. 1997). In such cases, the mark at issue is
“the celebrity’s persona and the strength of the mark
refers to the level of recognition the celebrity enjoys.”
Id. at 812 n. 1.
The false advertising prong at § 43(a)(1)(B)
protects consumers from the effects of false
advertising in “commercial” speech. It makes it
actionable for one to use descriptions or
representations of fact, which “in commercial
advertising or promotion, misrepresents the nature,
characteristics, qualities or geographic origin of his or

13
her … goods, services, or commercial activities ….” 15
U.S.C. § 1125(a)(1)(B).
In general, the Ninth Circuit and other circuits
apply a “likelihood-of-confusion test” to determine
whether a plaintiff prevails on its Lanham Act claims.
Twentieth Century Fox Television v. Empire Distrib.,
Inc., 875 F.3d 1192, 1196 (9th Cir. 2017) (“Empire”);
Mattel, Inc. v. Walking Mountain Prods., 353 F.3d
792, 806-07 (9th Cir. 2003).
III.

The Rogers Test

However, where the product being advertised
and marketed is an expressive work, the Ninth
Circuit, as well as other circuits, have adopted a twopart test first set forth in the Second Circuit case,
Rogers v. Grimaldi, 875 F.2d 994 (2d Cir. 1989), to
balance the public’s First Amendment interest in free
expression against the public’s interest in being free
from consumer confusion about affiliation and
endorsement from the use of the trademark. 2

2 The Ninth Circuit first adopted the Rogers test in Mattel, Inc.
v. MCA Recs., Inc., 296 F.3d 894 (9th Cir. 2002) (“MCA Recs.”),
in which it held that Lanham Act claims directed against
advertising of “expressive works protected by the First
Amendment” were limited to only those claims “where the public
interest in avoiding consumer confusion outweighs the public
interest in free expression.” (Citing Rogers, 875 F.2d at 999)
(emphasis added).)

14
Under Rogers, after a defendant makes an
initial threshold showing that its use of the mark is
“part of an expressive work protected by the First
Amendment,” the burden shifts to the plaintiff
claiming trademark infringement to show “(1) that
[plaintiff] has a valid, protectable trademark, and (2)
that the mark is either not artistically relevant to the
underlying work or explicitly misleading as to the
source or content of the work.” Gordon v. Drape
Creative, Inc., 909 F.3d 247, 264-65 (9th Cir. 2018)
(emphasis added). 3 There does not appear to be any
case in any jurisdiction at any level that discusses the
role that constitutional actual malice plays or does not
play in a Rogers analysis.
Notably, prior to the Rogers decision, to weigh
whether the First Amendment provides a defense to
claims brought under the Lanham Act, as an initial
matter, courts in the Ninth Circuit and beyond had
analyzed whether the speech at issue was made in bad
faith or defamatory, as part of analyzing whether the
A plaintiff who makes this showing still must go on to prove
that its trademark has been infringed (by showing that the
defendant’s use of the mark is likely to cause confusion under the
likelihood-of-confusion test). Gordon, 909 F.3d at 265; see also
MCA Recs., 296 F.3d at 900 (discussing the likelihood-ofconfusion test used in the Ninth Circuit before adopting the
Rogers test specifically for expressive works: “Our likelihood-ofconfusion test, see AMF Inc. v. Sleekcraft Boats, 599 F.2d 341,
348–49 (9th Cir.1979), generally strikes a comfortable balance
between the trademark owner's property rights and the public's
expressive interests.”).
3

15
speech was protected by the First Amendment. See,
e.g., Eastwood v. Nat'l Enquirer, Inc., 123 F.3d 1249,
1252 (9th Cir. 1997) (affirming jury verdict and fee
award in favor of actor Clint Eastwood on his Lanham
Act claims, due to finding that defendant tabloid
newspaper deliberately misrepresented that it had
conducted an “exclusive” interview with Eastwood);
Hoffman v. Capital Cities/ABC, Inc., 255 F.3d 1180
(9th Cir. 2001) (Ninth Circuit reversing verdict in
favor of actor Dustin Hoffman, where Hoffman failed
to prove that the magazine publisher of an altered
photograph of Hoffman had done so with actual malice
under New York Times Co. v. Sullivan); see also 5
MCCARTHY § 27:70 (actual malice is the relevant test
for whether celebrity false endorsement claims are
viable in connection with a media story or content).
Only if the speech at issue was not defamatory speech
made with actual malice would the courts then go on
to analyze whether the First Amendment interests
outweighed the property interests of the trademark
owner.
Following the Second Circuit’s issuance of
Rogers, and following the adoption of the Rogers test
(or a modified version thereof) by the Fourth, Fifth,
Sixth, Ninth, and Eleventh Circuits, 4 however, courts
See, e.g., Radiance Found., Inc. v. N.A.A.C.P., 786 F.3d 316, 329
(4th Cir. 2015); Westchester Media v. PRL USA Holdings, Inc.,
214 F.3d 658, 664-66 (5th Cir. 2000); ETW Corp. v. Jireh Pub.,
Inc., 332 F.3d 915, 937 (6th Cir. 2003); Univ. of Ala. Bd. of
Trustees v. New Life Art, Inc., 683 F.3d 1266, 1279 (11th Cir.
2012).
4

16
within these circuits have seemingly, or even
expressly, abandoned actual malice defamation
jurisprudence, instead merely relying on whether a
work is “creative expression” to satisfy all relevant
First Amendment inquiries.
That is the legal backdrop in which this case
arises.
IV.

Factual Background

Dickinson is a legendary supermodel and
reality television star with a famous mark. Eric
Rosette aka Erik Rosete (“Rosete”) owns a fashion
label.
Ryan Seacrest Productions, LLC; Truly
Original, LLC; Suns Productions, LLC; and Tess
Cannon produce the “reality” television series Shahs
of Sunset (“Shahs” or the “Series”), which is
distributed by NBCUniversal, LLC (Ryan Seacrest
Productions, LLC; Truly Original, LLC; Suns
Productions, LLC; Tess Cannon; and NBCUniversal,
LLC (“NBCUniversal”).
In late 2016, Rosete invited Dickinson to
participate in a charity fashion show event, where she
would be a runway model for Rosete’s latest clothing
line under his label, “Mister Triple X.” Unbeknownst
to Dickinson, Rosete and the other Defendants also
schemed to capture video footage of Dickinson’s
participation in the event for use in a Shahs episode.
Specifically, the Defendants schemed to create a
fictional narrative where, at the event, Dickinson
engaged in a catfight or “feud” with one of the Shahs

17
actors. At the event, the Defendants did in fact
capture footage of Dickinson, which they strategically
filmed so as to make it appears as if she were
interacting with the Shahs actors. They also filmed
additional fictional scenes using Shahs actors to be
featured alongside the footage they took of Dickinson,
to further support their made-up narrative.
NBCUniversal aired the episode containing
this manipulated footage of Dickinson and the
associated Shahs actor interviews containing
intentionally false statements about Dickinson (the
“Episode”) on its cable channel, “Bravo,” in July 2017.
The Episode falsely portrays Dickinson as having
stolen the runway outfit of one of the Shahs actresses
on the show and then having a dispute with the
actress about it. It also generally falsely portrays
Dickinson as an unprofessional, past-her-prime
runway model who deliberately sabotaged another
model’s runway walk for purposes of seeking
attention.
None of it actually happened. Nonetheless, the
Defendants marketed and advertised the Episode’s
narrative about Dickinson as a “true story,” including
through
press
releases,
cable
television
advertisements, interstitial ads within the Episode,
on Bravo’s website, and on third party video download
platforms. A substantial segment of consumers
believed that Dickinson actually engaged in the
behavior that the Defendants depicted, and shunned
Dickinson as a result, with some of them writing on
social media that they “hated” her for the conduct. As

18
a result, Dickinson suffered harm to the goodwill in
her mark.
Key to the plan’s success was Defendants’
ongoing false advertising to consumers about the
nature of the Series. The Series is a scripted, largely
or even entirely fictional program.
However,
Defendants intentionally falsely marketed the Series
to consumers as an unscripted, documentary “true
story” series, because they believe that sells better.
Defendants
engaged
in
this
conduct
intentionally and in bad faith, for the express purpose
of misappropriating Dickinson’s goodwill for the
benefit of Shahs.
After the Episode aired, Dickinson confronted
Defendants, who then presented her with a release
that she had allegedly signed, which Dickinson
contends is forged.
V.

Proceedings Below

On March 29, 2018, Dickinson filed suit against
Defendants, alleging false endorsement in violation of
15 U.S.C. § 1125(a)(1)(A); false advertising in
violation of 15 U.S.C. § 1125(a)(1)(B), trademark
dilution in violation of 15 U.S.C. § 1125(c), and
violation of California’s unfair competition statute,
Cal. Bus. & Prof. Code § 17200 (in connection with the
forged release).
Defendants moved to dismiss,
arguing, inter alia, that the First Amendment
provided a complete defense to Dickinson’s claims,

19
asserting the doctrine of Rogers v. Grimaldi, 875 F.2d
994 (2d Cir. 1989) as their primary defense.
The district court granted Defendants’ motion
to dismiss Dickinson’s operative complaint, but with
leave to amend. Ultimately, however, following
pleading amendments and additional motion
practice, 5 the district court dismissed Dickinson’s
Lanham Act claims with prejudice. 6 The district court
issued its final ruling dismissing Dickinson’s case on
March 26, 2019.
Dickinson appealed the district court’s ruling to
the Ninth Circuit Court of Appeals, in which
Dickinson argued, inter alia, that defamatory speech
about a public figure made with actual malice has no
First Amendment protection at all, regardless of
whether the speech is “creative” or “expressive,” and
thus, inter alia, the Rogers test, which is predicated
on balancing First Amendment concerns against
Dickinson filed her initial Complaint on March 29, 2018.
Dickinson filed a First Amended Complaint (“FAC”) on June 29,
2018. On July 30, 2019, Defendants moved to dismiss the FAC.
Following motion practice and oral argument, the district court
granted Defendant’s motion but with leave to amend.
On October 31, 2018, Dickinson filed her Second Amended
Complaint (“SAC”) but also filed a motion for leave to amend to
add defamation and other state law claims in a Third Amended
Complaint (“TAC”). Defendants filed a motion to dismiss the
SAC. After the district court granted Dickinson’s motion for
leave to amend and file the TAC, the parties stipulated that the
pending motion could be asserted against the TAC with respect
to the original four claims.
6 The district court also declined to exercise supplemental
jursidcition over Dickinson’s state law claims.
5

20
Lanham Act concerns, either could not be applied at
all or had to take into account the presence of
constitutional actual malice by the Defendants.
On December 21, 2020, the Ninth Circuit
issued a five-page memorandum opinion affirming the
district court ruling. The Ninth Circuit stated that,
“contrary to Dickinson’s arguments, the only
requirement for application of Rogers is that “the
[Appellees] . . . make a threshold legal showing that
[their] allegedly infringing use [was] part of an
expressive work protected by the First Amendment.”
Dickinson v. Ryan Seacrest Enters. Inc., 839 F.App’x
110, 111 (9th Cir. 2020). The appellate court then
conducted the Rogers analysis without regard to
whether the content Dickinson complained of –
specifically, the false narrative that Defendants
deliberately concocted to exploit her mark –
constituted defamatory speech. The Ninth Circuit
then held that the entirety of the Episode was
protected under the First Amendment. Thus, the
Ninth Circuit implicitly determined, without any
discussion, that the fact that the speech at issue by
defendants about the plaintiff was undisputedly
defamatory speech made with actual malice, and for
the
premeditated
purpose
of
willfully
misappropriating the plaintiff’s goodwill, was of no
moment whatsoever under the Rogers test.
This petition follows.

21
REASONS FOR GRANTING THE PETITION
I.

The
Question
Presented
Exceptionally Important

is

As briefly discussed above, the question will
have profound ramifications on the intentional
dissemination by the media of false information to
consumers held out by that same media as true – the
intentional use of “fake news” to influence consumer
choice, and to misappropriate the brand and goodwill
of another.
While necessarily broad, the First
Amendment was never intended to facilitate the
unauthorized and actively malicious exploitation of an
individual’s name, likeness, and other aspects of their
identity. Nor was the First Amendment ever intended
to protect the intentional dissemination of false
information.
Today’s digital landscape allows fake news,
which can make use of deepfakes and cheapfakes
alike, to spread rapidly, with little that the exploited
individual can do to reclaim his or her rights.
Moreover, such damage is not necessarily limited to
that of any one plaintiff, but rather affects the public
and our society as a whole. Defendants’ exploitation
of Dickinson’s celebrity certainly impacted her
individually – through the loss of creative control over
her celebrity and the resulting reputational damage.
However, it also damaged consumers by undermining
the integrity of the information signaling the
consumers use to make decisions.
It is no
exaggeration to say that the very foundations of our

22
democratic society are put at risk the more that the
accuracy and integrity of the information put out into
the mediasphere becomes uncertain. For instance,
false information has the potential to manipulate civil
discourse, interfere with elections, undermine
legitimate news sources, erode trust in public
institutions; indeed, such false information was
arguably the cause of civil unrest rising to the level of
physical violence within the halls of Congress itself. 7
II.

The Ninth Circuit Erred in Holding
that Courts Do Not Need to Consider
the Presence of Defamatory Speech
Made with Constitutional Actual
Malice in Considering the Rogers Test

Review is also warranted to correct the Ninth
Circuit’s erroneous decision.
As addressed above, under Rogers, Lanham Act
claims directed against the marketing and advertising
of “expressive works protected by the First
Amendment” are limited to only those claims “where
See, e.g., Initiatives to Counter Fake News in Selected Countries,
The Law Library of Congress, Global Legal Research Directorate
(April 2019),
https://www.loc.gov/law/help/fake-news/counter-fake-news.pdf.
See also Eriq Gardner, Deepfakes Pose Increasing Legal and
Ethical Issues for Hollywood, The Hollywood Reporter (July 12,
2019),
https://www.hollywoodreporter.com/business/businessnews/deepfakes-pose-increasing-legal-ethical-issues-hollywood1222978/; Edvinas Meskys, Julija Kalpokiene, Paulius Jurcys,
and Aidas Liaudanskas, Aidas, Regulating Deep Fakes: Legal
and Ethical Considerations (December 2, 2019), available
at https://ssrn.com/abstract=3497144.
7

23
the public interest in avoiding consumer confusion
outweighs the public interest in free expression.” MCA
Recs. , 296 F.3d at 894 (citing Rogers, 875 F.2d at 999)
(emphasis added).)
However, the Ninth Circuit
entirely failed to reconcile its holding with longestablished First Amendment jurisprudence, under
which there is no public interest weight given to
defamatory speech about a public figure made with
actual malice – actual malice is the established line
where the public interest becomes weightless.
It is true that case law holds that, where Rogers
is applicable, a plaintiff must show “(1) that [plaintiff]
has a valid, protectable trademark, and (2) that the
mark is either not artistically relevant to the
underlying work or explicitly misleading as to the
source or content of the work.” Gordon, 909 F.3d at
265 (emphasis added). But before a court gets to those
prongs, the defendant first must make a treshhold
showing that the underlying work was “an expressive
work protected by the First Amendment.” The Ninth
Circuit recently reaffirmed this rule in Gordon: “The
Rogers test requires the defendant to make a
threshold legal showing that its allegedly infringing
use is part of an expressive work protected by the First
Amendment.” Gordon, 909 F.3d at 264 (emphases
added). There was no dispute that Dickinson alleged
detailed and plausible allegations that Defendants’
speech was defamatory toward her and made with
actual malice, and those allegations governed at the
pleadings stage at which the case was decided.

24
Thus, for the Rogers test to apply, Defendants
should have been required to demonstrate that their
speech about Dickinson was protected by the First
Amendment. It makes no sense to allow Defendants
to enjoy First Amendment protection against
Plaintiff’s claims where the actionable content –
Defendants’ speech about the Plaintiff – has no First
Amendment protection at all. The Ninth Circuit thus
should have held that Defendants failed to meet their
threshold burden that the relevant content
constituted “expressive work protected by the First
Amendment.” Gordon, 909 F.3d at 264 (emphasis
added); see also MCA Recs., 296 F.3d at 900 (Ninth
Circuit first analyzed in detail whether Aqua’s Barbie
Girl was a work entitled to First Amendment
protections, as a pre-condition to applying the Rogers
test).
Instead, the Ninth Circuit determined that the
Episode was First Amendment-protected just because
it was a “reality” television program, without
considering whether the speech about Dickinson was
entitled to First Amendment protection. That was
error. While a “reality” television episode is an
“expressive work,” that does not mean that everything
in it is protected by the First Amendment. Indeed,
actually malicious defamatory speech about public
figures in the case law is frequently highly expressive
– yet also not protected by the First Amendment.
The Ninth Circuit therefore appears to hold
that Rogers overrides the actual malice test of New
York Times v. Sullivan for expressive works in the

25
Lanham Act context. But there is no case that says
any such thing: no case has ever stated that Rogers
eliminates actual malice analysis if it might be
applicable. In fact, it appears that the only reason the
New York Times v. Sullivan standard has not yet been
addressed in a case under Rogers thus far is that no
defendant has yet been so brazen as to undeniably
create defamatory speech about a public figure with
actual malice, and with express intent to deceive
consumers, and then assert Rogers as a defense.
Rogers was never intended to apply to such situations.
Rather, it has always been the implicit premise
in Rogers cases that the underlying work being
analyzed isn’t one created with actual malice or
intentional bad faith toward the plaintiff or
consumers. See, e.g., Parks v. LaFace Recs., 329 F.3d
437, 451-452 (6th Cir. 2003) (finding no actual malice
by defendants due to lack of false statements in
connection with song that used the plaintiff’s name in
title). Indeed, to Dickinson’s knowledge, no Rogers
case at any level has ever gone against this premise,
until the instant case. This Court therefore should
clarify that intentionally false speech made with
actual malice like Defendants engaged in here must
be analyzed outside of the Rogers doctrine.
III.

This Case is a Particularly Suitable
Vehicle for Resolving the Question
Presented

This case also presents an excellent vehicle for
addressing the pitfalls of adopting and applying the

26
Rogers test in balancing First Amendment protections
against the Lanham Act’s dual policy concerns of
protecting mark holders’ property rights and of
protecting the public against false, misleading and
confusing speech.
The procedural posture and the extreme factual
circumstances alleged in this case puts into stark view
how the Rogers test applies where defamatory speech
undisputedly made with actual malice is involved.
This case therefore provides this Court with an
opportunity to address whether defamatory speech
made with actual malice about a famous public figure,
is protected against Lanham Act claims under the
First Amendment even though it otherwise would not
have First Amendment protection outside the
Lanham Act context, or in the alternative, to make
clear that constitutional actual malice is of no moment
in assessing Lanham Act claims where the underlying
product is any form of expressive work.
Moreover, the case also highlights the
inconsistent approaches taken by the circuit courts in
balancing interests under the First Amendment and
the Lanham Act. 8
The Third, Seventh, Eighth, and Tenth Circuits
have either expressly rejected the Rogers test or have
See also Anthony Zangrillo, The Split on the Rogers v. Grimaldi
Gridiron: An Analysis of Unauthorized Trademark Use in
Artistic Mediums, 27 Fordham Intell. Prop. Media & Ent. L.J.
385
(2017),
available
at
https://ir.lawnet.fordham.edu/iplj/vol27/iss2/5.
8

27
not yet decided whether to do so. See, e.g., Facenda v.
N.F.L. Films, Inc., 542 F.3d 1007 (3d Cir. 2008)
(declining to decide whether to adopt the Rogers test);
Eastland Music Grp., LLC v. Lionsgate Entm’t, Inc.,
707 F.3d 869, 871 (7th Cir. 2013) (same); Mut. of
Omaha Ins. Co. v. Novak, 836 F.2d 397, 402 (8th Cir.
1987) (following an alternative avenues approach,
holding that a trademark owner’s rights need not
“yield to the exercise of First Amendment rights under
circumstances where adequate alternative avenues of
communication exist.”); Cardtoons, L.C. v. Major
League Baseball Players Ass’n, 95 F.3d 959, 970 (10th
Cir. 1996) (holding that the trademark law has “builtin mechanisms that serve to avoid First Amendment
concerns”).
The Second, Fourth, Fifth, Sixth, Ninth, and
Eleventh Circuits have all adopted the Rogers test but
differ in how they apply it. For instance, the Second
and Fifth circuits have incorporated the eight-factor
balancing test from Polaroid Corp. v. Polarad Elec.
Corp., 287 F.2d 492, 495 (2d Cir.), cert. denied, 368
U.S. 820 (1961) into the “explicitly misleading” prong
of the Rogers test. See, e.g., Twin Peaks Prods., Inc. v.
Publications Int'l, Ltd., 996 F.2d 1366, 1379 (2d Cir.
1993) (determining whether title of book was
explicitly misleading “by application of the venerable
Polaroid factors”); Westchester Media v. PRL USA
Holdings, Inc., 214 F.3d 658, 665 (5th Cir. 2000)
(adopting Second Circuit approach). In contrast, the
Fourth, Sixth, Ninth and Eleventh circuits treat the
“explicitly misleading” prong as a distinct inquiry

28
from the likelihood of confusion analysis — requiring
a finding that there be “an ‘explicit indication,’ ‘overt
claim,’ or ‘explicit misstatement’ that caused such
consumer confusion.” Empire, 875 F.3d at 1199 (citing
MCA Recs., Inc., 296 F.3d at 902); see also Radiance
Found., Inc. v. N.A.A.C.P., 786 F.3d 316, 329 (4th Cir.
2015) (reversing judgment in favor of defendant’s
counterclaims of trademark infringement and dilution
on basis that there was no consumer confusion as to
“source, sponsorship or affiliation”); ETW Corp. v.
Jireh Pub., Inc., 332 F.3d 915, 937 (6th Cir. 2003)
(finding use of celebrity’s image did not explicitly
mislead as to source of work); Univ. of Ala. Bd. of
Trustees v. New Life Art, Inc., 683 F.3d 1266, 1279
(11th Cir. 2012) (artist’s use of university’s
trademarks on products did not explicitly mislead as
to source of content). In Dickinson’s case specifically,
the Ninth Circuit held that Dickinson failed the
Rogers test because there was no “explicitly
misleading” statement as to the “source or content” of
the Episode – given that Dickinson actually attended
the charity event, and given that Defendants’ false
statements about Dickinson nevertheless truthfully
described the (false) content of Episode (with the
Ninth Circuit declining to wrestle expressly with the
Defendants’ intentionally false labelling of the Series
and thus the Episode as telling true stories, in the
nature of news).
Dickinson submits that this
reasoning under the Ninth Circuit, too, contravenes
both fundamental principles of the First Amendment
of the Lanham Act.

29
Accordingly, this case also provides this Court
with an opportunity to provide guidance to the circuit
courts on a consistent approach as to when a
trademark owner’s property interest must yield to
First Amendment rights.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
Edward M. Anderson
Counsel of Record
Regina Yeh
ANDERSON YEH PC
401 Wilshire Boulevard, 12th
Floor
Santa Monica, CA 90401
Telephone: (310) 496-4270
edward@andersonyehlaw.com
May 19, 2021

APPENDIX

1a
APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-55415
D.C. No. 2:18-cv-02544-GW-JPR
JANICE DICKINSON,
Plaintiff-Appellant,
v.
RYAN SEACREST ENTERPRISES INC.; ET AL.;
Defendants-Appellees.
Appeal from the United States District Court
For the Cental District of California
George H. Wu, District Judge, Presiding
Submitted June 2, 2020 ∗
Pasadena, California
Filed December 21, 2020

The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
∗

2a
Before: LIPEZ, ** RAWLINSON, and N.R. SMITH,
Circuit Judges.
MEMORANDUM ***
Appellant Janice Dickinson (Dickinson)
appeals the district court’s dismissal of her Lanham
Act and state law claims against Appellees Ryan
Seacrest Enterprises Inc., Truly Original, LLC, Sun
Productions, LLC, Tess Cannon, NBCUniversal
Media, LLC, Erik Rosette, Ryan Seacrest Productions,
LLC, and Suns Productions, LLC based on her
portrayal in the reality television series, Shahs of
Sunset (Shahs). We have jurisdiction under 28 U.S.C.
§ 1291 and review de novo the district court’s order of
dismissal under Rule 12(b)(6) of the Federal Rules of
Civil Procedure. See Curtis v. Irwin Indus., Inc., 913
F.3d 1146, 1151 (9th Cir. 2019).
When an allegedly infringing use of a mark is
an expressive work, we apply the test from Rogers v.
Grimaldi, 875 F.2d 994 (2d Cir. 1989), to determine
whether the Lanham Act applies. See Twentieth
Century Fox Television v. Empire Distrib., Inc., 875
F.3d 1192, 1196 (9th Cir. 2017). Despite Dickinson’s
contrary arguments, the only requirement for
application of Rogers is that “the [Appellees] ... make
a threshold legal showing that [their] allegedly
infringing use [was] part of an expressive work
protected by the First Amendment.” Gordon v. Drape
Creative, Inc., 909 F.3d 257, 264 (9th Cir.
The Honorable Kermit V. Lipez, United States Circuit Judge
for the First Circuit, sitting by designation.
*** This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
**

3a
2018) (emphasis added). Dickinson concedes that “a
‘reality’ television episode is an ‘expressive work.’ ”
Thus, Appellees made the threshold legal showing
that the allegedly infringing use of the mark in the
Shahs episode was “part of an expressive work
protected by the First Amendment.” Id. Accordingly,
we apply the Rogers test to ascertain the viability of
Dickinson’s Lanham Act claims arising out of the
episode
of
Shahs
and
the
related
advertisements. See Empire, 875 F.3d at 1196-97.
To succeed under the Rogers test, the “creator’s
use of the mark [must be] explicitly misleading as
to source or content.” Gordon,
909
F.3d
at
269 (citation and internal quotation marks omitted)
(emphases added). Dickinson argues that the
Appellees’ use of her mark was explicitly misleading
as to source and content. We disagree. First,
under Rogers,
we
ask
whether
Dickinson’s
appearance on an episode of the series would
“explicitly mislead consumers” into thinking that
Dickinson endorsed or sponsored Shahs—i.e., we
consider whether use of the mark “explicitly [misled]
consumers” as to the source of the work. Brown v.
Elec. Arts, Inc., 724 F.3d 1235, 1245-46 (9th Cir.
2013) (citation, alterations, and internal quotation
marks omitted). There must be “an explicit indication,
overt claim, or explicit misstatement” that causes
consumer confusion. Id. at 1245 (citation and internal
quotation marks omitted).
Dickinson maintains that Appellees exploited
her mark to promote the Shahs series by taking
advantage of the accumulated goodwill from her
career as a supermodel. Dickinson did not allege that

4a
the Shahs episode or the promotional materials for
that episode contained an explicit representation that
Dickinson was an endorser or sponsor of the series.
Rather, Dickinson alleged only that she made an
appearance on the show. See id. (stating that “the
mere use of a trademark alone cannot suffice to make
such use explicitly misleading”) (citation omitted).
Thus, Dickinson failed to allege that Appellees’ use of
the mark is explicitly misleading as to source or
sponsorship.
Second, Dickinson argues that Appellees’ use of
the mark explicitly misleads consumers as to the
content of the episode. Dickinson contends the
following two alleged false representations act
together to deceive consumers into believing the
romper controversy actually occurred: (1) that Shahs
is unscripted and portrays real-life events; and (2) in
the episode, Dickinson stole the romper and had a
confrontation with a Shahs cast member related to the
romper. Under Rogers, the relevant inquiry is not
simply whether the content or advertisements are
misleading, but whether the Appellees’ use of the
mark explicitly misleads consumers as to the content
of the work. See id. at 1239.
Considered individually or collectively, the
alleged misrepresentations do not explicitly mislead
consumers as to the content of the episode. Indeed, as
the district court recognized with respect to the first
alleged misrepresentation, Dickinson’s “mark has no
bearing on whether or not Bravo advertises [its] show
as a scripted series or reality television.” With respect
to the second category of misrepresentations, the
identified clips and equivocal statements containing

5a
the mark accurately portray the content of the
episode. Even considered collectively, the alleged
misrepresentations do not explicitly mislead
consumers but, only implicitly suggest that the
romper controversy actually occurred. Therefore,
because Dickinson’s allegation did not state a
plausible Lanham Act claim, the district court
correctly dismissed the claims predicated on the
Lanham Act and the remaining state law
claims. See Lima v. United States Dep’t of Educ., 947
F.3d 1122, 1128 (9th Cir. 2020) (explaining that the
district court may decline to exercise supplemental
jurisdiction over state law claims, when no federal
claims remain).
AFFIRMED. 1

Because our resolution of the Lanham Act claims is dispositive,
we need not and do not address any other issues raised by the
parties. See Marder v. Lopez, 450 F.3d 445, 454 (9th Cir. 2006).

1

6a

APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
D.C. No. 2:18-cv-02544-GW-JPR
JANICE DICKINSON,
v.

Plaintiff,

RYAN SEACREST ENTERPRISES INC.; ET AL.;
Defendants.
PROCEEDINGS: IN CHAMBERS - FINAL RULING
ON DEFENDANTS’ MOTION TO DISMISS
PLAINTIFF’S SECOND AMENDED COMPLAINT
The Honorable George H. Wu
Filed March 26, 2019

7a
Attached hereto is the Court’s Final Ruling.
The first three federal causes of action contained in
the Third Amended Complaint under 15 U.S.C. §§
1125(a)(1)(A), 1125(a)(1)(B) and 1125(c) are dismissed
without leave to amend; and the Court declines to
exercise supplemental jurisdiction over the remaining
state claims (causes of action four through ten) and
dismisses them without prejudice.
Dickinson v. Ryan Seacrest Enterprises, Inc.;
Case No. 2:18-cv-02544-GW-(JPRx) Final Ruling on
Defendants’ Notice of Motion and Motion to Dismiss
Plaintiff’s Second/Third Amended Complaint
I.

Background

A. Factual Background
Plaintiff Janice Dickinson (“Dickinson” or “Plaintiff”)
sues Ryan Seacrest Enterprises Inc.; Truly Original,
LLC; Sun Productions, LLC; Tess Cannon; NBC
Universal Media, LLC; Erik Rosette (“Rosette”) aka
Erik Rosete aka Mister Triple X; Ryan Seacrest
Productions, LLC; Suns Productions LLC; and Does 320 (collectively, “Defendants”) 1 for: (1) false
endorsement in violation of 15 U.S.C. § 1125(a)(1)(A);
(2) false advertising in violation of 15 U.S.C. §
On July 9, 2018, Plaintiff filed a notice of voluntary dismissal
without prejudice as to Ryan Seacrest Enterprises, Inc. and Sun
Productions, LLC. See Plaintiff Janice Dickinson's Notice of
Voluntary Dismissal Without Prejudice of Defendants Ryan
Seacrest Enterprises, Inc. and Sun Productions, LLC, Docket No.
33.
1

8a
1125(a)(1)(B); (3) dilution in violation of 15 U.S.C. §
1125(c); (4) violation of California Business &
Professions Code §§ 17200 (the “UCL”), et seq.; (5)
Defamation; (6) False Light (7) Invasion of Privacy; (8)
Fraud; (9) Unjust Enrichment; and (10) Reasonable
Value of Services. See generally Third Amended
Complaint (“TAC”), Docket No. 70. The first three
causes of action are brought pursuant to federal
trademark/Lanham Act law and the remaining claims
under state law.
The TAC alleges the following:
1. Plaintiff’s Background
Plaintiff is a “famous” and “indeed legendary [ ]
supermodel,” a “fashion and popular culture icon” and
a
“well-recognized
television
and
media
personality.” See TAC ¶ 13. In the past, Plaintiff has
designated representatives to enter into agreements
to authorize the use of her “appearance and celebrity,”
including in television. See id. ¶ 23. Plaintiff has been
a producer, judge, contestant, and/or guest star in the
following reality television series: America’s Next Top
Model, The
Janice
Dickinson
Agency, I’m
a
Celebrity ... Get Me Out of Here!, Celebrity Rehab with
Dr. Drew, and Celebrity Big Brother. See id. ¶ 24.
Plaintiff attends charity runway shows and
photoshoots without a fee for the dual purpose of
serving charity and “maintaining and building
goodwill in her mark and brand.” See id. ¶ 25.
Plaintiff does not appear on reality television shows
pro bono. See id.

9a
2. Plaintiff’s Work for Rosette at Los Angeles Fashion
Week
Plaintiff has known Rosette for many years. See id. ¶
26. Rosette is a designer and the founder of Art Hearts
Fashion, a “charitable organization that produces
runway shows during New York Fashion Week, Los
Angeles Fashion Week, and other fashion events. See
id. Plaintiff appeared as a runway model pro bono
during Los Angeles Fashion Week for Rosette each
year between 2010 and 2016. See id. ¶ 27. Rosette
knew that Plaintiff would not appear pro bono as a
runway model if Rosette were planning to exploit
Plaintiff’s “celebrity” without her consent to facilitate
a reality television show. See id.
In Fall 2016, Plaintiff agreed to appear in Rosette’s
runway show under his “Mister Triple X” label,” with
the show scheduled for October 2016 during Los
Angeles Fashion Week. See id. ¶ 28. Plaintiff
understood that her appearance would go toward
supporting the Mister Triple X label and young
emerging artists and designers within the Art Hearts
Fashion organization, not to promoting, marketing, or
advertising a reality television series. See id. ¶ 29.
Plaintiff did not and would not have agreed to appear
in the show in a way that would be harmful to her
celebrity and her brand. See id. Plaintiff is informed
and believes that Rosette, without her knowledge,
contracted with or otherwise agreed and arranged
with one or more Defendants to exploit Plaintiff’s
appearance on an episode of the Shahs of Sunset
Series (“Series”). See id. ¶ 30. If Plaintiff had known

10a
about these arrangements she would not have
appeared pro bono, or necessarily at all. See id. ¶ 31.
Plaintiff would not have agreed to participate in a
narrative in the Series that would have a negative
impact on her celebrity brand. See id. ¶ 33.
Plaintiff alleges that Rosette, along with one or more
agents for Seacrest Productions, Truly Cannon, and/or
Suns Productions agreed and conspired to script an
episode of the Series (“the Episode”) to include a false
controversy in which they would make it appear that
Plaintiff intentionally stole or bullied her way into
wearing an outfit that had supposedly been previously
selected
for
Golnesa
Gharachedaghi
(“Gharachedaghi”), a lead character on the Series. See
id. ¶ 34. This group scripted the episode so that: (1)
Plaintiff’s conduct in “stealing” the outfit would upset
Gharachedaghi; (2) Gharacedaghi would falsely act as
though she was experiencing “trauma and
consternation,” and; (3) Gharachedaghi would
“intentionally, maliciously and falsely disparage
Plaintiff on camera.” See id. This group conspired and
scripted the Episode with the intent of keeping the
plan and script secret from Plaintiff, which they
ultimately did. See id. ¶ 35. Defendants have and
continue to falsely represent that the Series is a
documentary program rather than a scripted or
fictional series, when in fact the Series is largely or
entirely scripted. See id. ¶ 36. The group did so to
market, advertise, and promote the Series by
improperly trading off the goodwill, celebrity, and
fame of Plaintiff, without paying any fee. See id.

11a
Defendants knew that if Plaintiff was aware that the
series was scripted to include her, she would have
expected a “substantial fee” to participate. See id. ¶
37. Defendants intentionally engaged in conduct to
improperly usurp Plaintiff’s good will for their own
business purposes with the knowledge that their
actions would “effectively destroy or at least seriously
damage” Plaintiff’s “own true affirmative goodwillbuilding narrative achieved by performing services at
the event” in a positive and professional manner.” See
id. By doing so Defendants destroyed Plaintiff’s own
marketing and promotion effort. See id.
3. The Fall 2016 Mister Triple X Show at Los Angeles
Fashion Week
On or around October 11, 2016, Plaintiff participated
in the Mister Triple X runway show at the Beverly
Hilton during Los Angeles Fashion Week. See id. ¶ 41.
In the backstage dressing area, a member of the Arts
Hearts Fashion staff, with Rosette’s knowledge and
approval, directed Plaintiff to a rack of Mister Triple
X label clothing. See id. ¶ 42. The staff member then
offered Plaintiff two choices of outfits from the rack,
one of which was a shiny silver romper that the staff
member strongly encouraged Plaintiff to choose to
effectuate the pre-scripted conspiracy. See id. Rosette
and the staff member intentionally manipulated
Plaintiff into choosing the romper. See id.
Prior to the runway show, Rosette arranged and
directed Plaintiff to participate in a photoshoot
wearing the romper in the backstage area, which was

12a
part of the pre-scripted conspiracy kept from
Plaintiff. See id. ¶ 43. Plaintiff then opened and closed
the runway show wearing the romper. See id. At no
time did Plaintiff sign any contract or release for her
appearance on the Series or in the Mister Triple X
runway show. See id. ¶ 44. Prior to the airing of the
Episode, Plaintiff was unaware that Defendants were
producing the Episode during Los Angeles Fashion
Week and she was similarly unaware of the prescripted conspiracy. See id. Defendants contend that
they obtained a signature from Plaintiff; and Plaintiff
avers that, if they did so, it was by deception such that
Plaintiff was unaware that she was signing anything
at all, or believed she was signing something other
than a release. See id. ¶ 45. In the alternative,
Defendants or persons acting on their behalf falsely
affixed a signature that was not Plaintiff’s and was
not authorized by her, around the date of the fashion
show. See id. Under this version, Defendants falsified
Plaintiff’s signature to represent within the corporate
hierarchy they had followed the legal requirements,
and requirements of insurers, and corporate policies
in obtaining a release from Plaintiff. See id. ¶ 47.
4. Plaintiff’s Learning of Her Appearance on the
Episode
On or around August 2017, Plaintiff learned that her
appearance in Fall 2016 at the Mister Triple X runway
show was exploited in the Episode, first aired on July
30, 2017 on Bravo TV. See id. ¶ 51. The Episode shows
Plaintiff walking the runway during the Mister Triple
X show, Plaintiff preparing backstage, and Plaintiff

13a
posing at the backstage photoshoot wearing the
romper. See id. ¶ 52. Those scenes were filmed
without Plaintiff’s knowledge or consent and were
intentionally manipulated to feature Plaintiff
prominently in the Episode and accompanying
promotion, marketing, and advertising to trade off of
Plaintiff’s fame and good will. See id. Those scenes
were used to intentionally create a false narrative that
Plaintiff “stole” or “jacked” the romper Rosette
promised for Gharachedaghi, one of the lead
characters in the Series. See id. ¶ 53.
In the Episode, Plaintiff wears the romper and
Gharachedaghi looks at Plaintiff and tells Rosette “[w]
hat’s going on with that outfit,” to which Rosette
replies “[y]ou got jacked.” See id. ¶ 54. Gharachedaghi
then exhibits purported outrage at how Plaintiff stole
the romper, when in fact Gharachedaghi was not
“supposed to wear” the outfit and Plaintiff did not
“take” it. See id. The Episode then shows
Gharachedaghi reacting to Plaintiff’s seemingly
selfish conduct that was engineered by Rosette and
his staff. See id. The intent of the exchange was to
portray Plaintiff as an “arrogant, unprofessional and
purportedly past-her-prime” celebrity attempting to
interfere with Gharchedaghi’s fashion show
experience. See id. ¶ 55.
Defendants’ actions “seriously damaged” Plaintiff’s
reputation with consumers and caused her to lose the
“goodwill value of her charity work” for the event. See
id. Plaintiff’s name, image, likeness and reputation
were “blatantly” used to promote the Episode and the

14a
Series in television and online advertising, as well as
in print media leading up to the Episode’s release
without Plaintiff’s approval. All of the promotional
materials portrayed her as a “fashion runway ‘thief’ ”
who stole Gharachedaghi’s outfit, and alleged a false
narrative that the storyline was “reality.” See id. ¶ 61.
Defendants’ also caused the press to repeat their false
narrative about the Episode. See id. Members of the
public understood and believed the episode to portray
the true story of how Plaintiff conducted herself at the
charity event. See id. ¶ 62. Members of the public
decided that they “did not like” or “hated” Plaintiff as
a result of viewing the Episode and advertising. See
id. Public commenters on a Youtube clip of the episode
made disparaging comments about Plaintiff based
upon the content of the episode. See id.
5. Plaintiff’s Confrontation with Defendants and the
Forging of the Release
After becoming aware of the Episode, Plaintiff and/or
her representatives communicated with producers of
the Series about how the Episode came to pass. See
id. ¶ 63. The producers claimed Plaintiff had
authorized the above in a written signed release. See
id. Plaintiff did not sign such a release, and it took
weeks for the producers to produce the release. See
id. ¶¶ 63.
On or around September 6, 2017, Plaintiff received an
email from Cannon (“Cannon Email”) attaching a
document that purports to be a printout of an
electronic release signed by Plaintiff on a mobile

15a
device (“Purported Release”). See id. ¶ 64-65; TAC Ex.
A (copy of the Cannon Email and the Purported
Release), Docket No. 70-1 at CM/ECF pgs. 2-5. The
Purported Release reflects a release between Janice
“Dickenson” (spelling incorrect in Purported Release)
and Suns Productions, LLC, in which Plaintiff
released Suns Productions, NBC Universal, and all
their affiliates from a broad range of liability for
Plaintiff’s appearance in the Series. See id.
Subject to the alternative versions regarding
Plaintiff’s signature on the release, Plaintiff never
signed the Purported Release and the signature does
not match Plaintiff’s signature. See TAC ¶ 51. The
signature on the Purported Release is different from a
sample of Plaintiff’s signatures. See id.; TAC Ex. B
(sample of Plaintiff’s signature), Docket No. 70-2 at
CM/ECF pg. 2. As such, upon information and belief
at least some of Defendants forged Plaintiff’s
signature on the Purported Release. See TAC ¶ 66.
Cannon presented the forged release to Plaintiff to
defraud her and did so at the direction of or with the
encouragement of each of the Defendants. See id. ¶ 67.
Plaintiff requested the electronic original of the
Purported Release to conduct a forensic examination,
but Defendants have refused. See id. ¶ 68. Defendants
have made no denial as to forging the Purported
Release. See id. ¶ 69.
The Episode at issue continues to be distributed on
BravoTV’s cable broadcast, through BravoTV.com,
through BravoTV’s mobile application, and through
download or streaming on Amazon Prime Video,

16a
Google Play, Hulu, and other platforms. See id. at ¶
70. Plaintiff’s appearance in the Episode continues to
be used in advertising and promotion as of the writing
of the TAC. See id.
6. Defendants’ False Statements About the Content of
the Series, the Episode and Plaintiff
Defendants’ succeeded in their “fraudulent and
unethical scheme” by making false statements to
consumers, including explicitly false and/or explicitly
misleading statements about the source, and the
content of the Series and the Episode. See id. ¶ 71.
Defendants have perpetrated a fraud on consumers
with their messaging promoting the Series as a true
story. See id. ¶ 72-73. Defendants do not deny that the
series is largely scripted. See id. ¶ 72. Large segments
of consumers believe that the Series and its episodes
are unscripted, true stories. See id. ¶ 74. Defendants
have put out explicit statements indicating that the
show is unscripted for the purpose of giving
consumers this false impression. See id.
The Series and its episodes are produced by a
combination of activities carried out by Cannon,
Truly, Suns Productions and Seacrest Productions, as
programming for Bravo. See id. ¶ 76. Bravo is a
television station owned and operated by
NBCUniversal, and carried on basic cable. See
id. NBCUniversal licenses Bravo as a channel to cable
television providers, who include it in their
packages. See id. ¶ 77. NBCUniversal also licenses
Bravo video content to online retailers with the right

17a
to “sell” episodes to consumers for a fee. See id. ¶ 78.
Defendants profit from consumers viewing the series
through cable programming license fees, advertising
revenue and download revenue. See id. ¶ 79. All of the
monetization models depend, at least in part, on the
popularity of the series and its episodes among
consumers. See id. ¶ 80. Defendants (other than
Rosette) have inserted false statements into the
stream of commerce claiming that the Series episodes
are “true stories” in order to attract viewers. See id. ¶
81.
Defendants have used the following Misstatements
about content to perpetuate the fraud that the
television series is unscripted, true content:
1. “Docuseries” and “Unscripted” Labels. On or about
January 23, 2012 NBCUniversal issued a press
release describing the series as a “docu-series.” See
id. ¶ 83. This is an explicitly false statement. See
id. ¶ 84. The “docu-series” description influences
consumers purchasing decisions. See id. ¶ 84. At
the point of sale for the series and its episodes,
including the Episode at issue in this litigation, the
series is touted as “unscripted” because
Defendants and NBCUniversal approved and/or
encouraged such a description. See id. ¶ 89.
2. “True Entertainment” Label. Many episodes of
the Series available for download from online video
retailers include a credit to a production entity
associated with the series, called “True
Entertainment.” See id. ¶ 90. Featuring this credit
on the screen at the end of the programming is
intended to make viewers believe that the Series

18a
tells “true stories.” This label induces consumers to
purchase other episodes of the show and reinforces
the false belief that the Series tells “true
stories.” See id. at 91.
NBCUniversal actively markets and advertises the
Series and its episodes on Bravo TV’s website. See
id. ¶ 98; TAC Exhibit G (“Exhibit G”), Docket No. 707, CM/ECF pgs. 2-8. The website invites consumers to
engage in commercial behavior by encouraging
viewers to watch episodes through links on the page
that direct them to log into a cable television
subscription, or to download the episode for a
fee. See TAC ¶ 99-100. To encourage viewers to watch
episodes of the Series, Bravo TV’s website includes
“preview” clips for each episode with a written “teaser”
about each clip for the purpose of enticing consumers
to watch or buy an episode. See id. ¶ 101. Two of the
marketing clips for the Episode shown on Bravo TV’s
website use Plaintiff’s mark to make false statements
about the content of the episode to encourage
consumers to commercially engage with the
episode. See id. ¶ 102; Exhibit G. One of the Bravo TV
Website clips advertising the Episode (“Clip 1”)
includes this statement: “Did Janice Dickinson Just
Steal GG’s Look?! Evidently she took the outfit GG
was supposed to wear on the runway, and GG is pissed
.... ” See id. at 1,3; TAC ¶ 103. This is an explicit
statement that the episode shows Plaintiff “stealing”
Gharachedaghi’s “look” by taking the outfit
Gharachedaghi was supposed to wear at the fashion
show. See id. ¶ 103. The episode’s content does not
show Plaintiff “stealing” the outfit or having any
confrontation with Gharachedaghi. See id. Combined

19a
with the “pre-established false status of the Series as
a docu-series, these statements explicitly mislead
viewers to falsely believe that Plaintiff actually “stole”
Gharachedaghi’s outfit. See id. When Clip 1 is played,
it shows Plaintiff walk by Gharachedaghi, and a
dialogue between Gharachedaghi and other cast
members implying that Plaintiff stole the outfit. See
id. ¶ 104. In a July 20, 2017 YouTube Piece, the same
clip (Clip 1) was featured with an identical
“teaser”statement. See
id. ¶
113-114.
Closed
captioning is included so that viewers can read the
false statements included in the exchange. See id. ¶
104. Another teaser clip on the Bravo TV website
promoting the Episode (“Clip 2”) includes the
following text: “Did we mention Janice Dickinson
makes an appearance?” See id. ¶ 105. Given Plaintiff’s
star power, consumers would assume that Plaintiff
would only “appear” on the series voluntarily, and
that as such, she endorsed the show. See id.
During telecasts of the Episode on the Bravo channel,
NBCUniversal ran interstitial advertisements during
the Episode to tease viewers about upcoming
content. See id. ¶109. The interstitials suggest
Plaintiff bullyed Gharachedaghi out of her outfit. See
id. These interstitials explicitly convey false
statements to consumers about the content by
implying that if consumers continue to tune in they
will be shown documentary footage of a controversy
between Plaintiff and Gharachedaghi. See id. One of
the interstitials includes a clip where a cast member
says “It’s about to go disown” meaning that there is
about to be an on screen fight between Gharachedaghi
and Plaintiff. See id. The episode never shows any

20a
confrontation between Plaintiff and Gharchedaghi,
because no confrontation ever occurred. See id
Two days before the Episode release on July 20, 2017,
Natalie Stone published an article on PeopleTVWatch
headlined “Call the Fashion Police: Janice Dickinson
just stole Golnesa ‘GG’ Gharachedaghi’s romper!” See
id. ¶ 106. Discovery will show that Defendants
provided a copy of the episode, and/or relevant clips to
Stone as well as false statements about the content of
the Episode for the purpose of generating “unpaid”
media to increase commercial engagement with the
episode. See id. ¶ 107-108.
B. Procedural Background
Defendants initially filed a motion to dismiss the FAC
which only alleged the three federal causes of action
under
15
U.S.C.
subsections
1125(a)(1)(A),
1125(a)(1)(B) and 1125(c) plus a state unfair
competition claim under California Business and
Professions Code §§ 17200 et seq. See Memorandum of
Points and Authorities in Support of Defendants’
Motion to Dismiss Plaintiff’s First Amended
Complaint (“First MTD”), Docket No. 38. 2 In response,
Defendants also submitted a request for judicial
notice. See Request for Judicial Notice in Support of Defendants’
Motion to Dismiss Plaintiff's First Amended Complaint (“Defs.’
RJN”), Docket No. 40. Defendants request that the Court take
judicial notice of the Episode, the three articles referenced in the
FAC, the YouTube page referenced in the FAC, and the press
release referenced in the FAC. See id.; Declaration of Wook
2

21a
Plaintiff filed an opposition to the MTD. See Plaintiff’s
Memorandum of Points and Authorities in Opposition
to Defendants’ Motion to Dismiss First Amended
Complaint (“First Opp’n”), Docket No. 41. Defendants
filed a reply. See Reply Memorandum of Points and
Authorities in Support of Defendants’ Motion to
Dismiss Plaintiff’s First Amended Complaint (“First
Reply”), Docket No. 45. The Court entered a Tentative
Ruling on the First MTD on October 1, 2018,
Hwang in Support of Defendants’ Motion to Dismiss (“Hwang
Decl.”) Exs. 1-6, Docket No. 39. The Court would find those
materials suitable for judicial notice because they are
incorporated by reference in the FAC. See Tellabs, Inc. v. Makor
Issues & Rights, Ltd., 551 U.S. 308, 323 (2007) (noting that
“courts must consider the complaint in its entirety, as well as
other sources courts ordinarily examine when ruling on Rule
12(b)(6) motions to dismiss, in particular, documents
incorporated into the complaint by reference ....”); see also Coto
Settlement v. Eisenberg, 593 F.3d 1031, 1038 (9th Cir.
2010) (noting that the Ninth Circuit has “extended the doctrine
of incorporation by reference to consider documents in situations
where the complaint necessarily relies upon a document or the
contents of the document are alleged in a complaint, the
document's authenticity is not in question and there are no
disputed issues as to the document's relevance.”).
On a separate note, Plaintiff lodged objections to evidence
submitted
along
with
Defendants’
First
MTD. See
generally Plaintiff's Evidentiary Objections to Evidence
Submitted in Connection with Defendants’ Motion to Dismiss
Plaintiff's First Amended Complaint (“Pl.’s Objections”), Docket
No. 42. Plaintiff objects to the inclusion of examples of her
signature on page 3 footnote 1 of the MTD and other examples of
Plaintiff's signature including Defendants’ link to search results
on eBay. See id. These samples do not come into play in the below
analysis, and thus the Court need not rule on that objection.

22a
dismissing all four causes of action without
prejudice. See Civil Minutes; Defendants Motion to
Dismiss Plaintiff’s First Amended Complain, Docket
No. 46. The court adopted the Tentative Ruling as its
Final Decision on October 3, 2018. See In Chambers –
Ruling on Defendants’ Motion to Dismiss Plaintiff’s
First Amended Complaint (“First MTD Ruling”),
Docket No. 47.
Plaintiff subsequently filed a second amended
complaint. See Second Amended Complaint (“SAC”),
Docket No. 53. Defendants filed a motion to Dismiss
the SAC. See Defendants’ Notice of Motion and
Motion to Dismiss Plaintiff’s Second Amended
Complaint (“MTD”), Docket No. 59. Plaintiff filed an
opposition to the MTD. See Memorandum in
Opposition to Notice of Motion and Motion to Dismiss
Case (“Opp’n”), Docket No. 62. Defendant filed a reply
in support of the MTD. See Reply in Support of Notice
of Motion and Motion to Dismiss Case (“Reply”),
Docket No. 64. Prior to the hearing on the MTD as to
the SAC, the parties stipulated to Plaintiff’s filing a
third amended complaint with the present ten causes
of action. See Third Amended Complaint (“TAC”),
Docket No. 70. Defendants filed a stipulation for an
order approving a procedure to consider the current
MTD as a motion to dismiss the first four claims for
relief set forth in the TAC (i.e. the three federal §
1125 causes of action plus the state unfair competition
claim). See Stipulation
for
Order
Approving
Procedure Proposed by Parties in Stipulation Re:
Defendants’ Motion to Dismiss Plaintiff’s Third
Amended Complaint, Docket No. 71. The Court issued
an order on March 12, 2019 approving the procedure

23a
proposed
by
stipulation. See Order
Approving
Procedure Proposed by Parties in Stipulation Re:
Defendants’ Motion to Dismiss Plaintiff’s Third
Amended Complaint, Docket No. 72.
II.

Legal Standard

Typically, plaintiffs in federal court need only give “a
short and plain statement of the claim showing
[entitlement] to relief.” Fed. R. Civ. P. 8(a)(2). Under
Rule 12(b)(6), a defendant may move to dismiss for
failure to state a claim upon which relief can be
granted. Fed. R. Civ. P. 12(b)(6). A complaint may be
dismissed for failure to state a claim for one of two
reasons: (1) lack of a cognizable legal theory; or (2)
insufficient facts under a cognizable legal theory. Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007); see
also Mendiondo v. Centinela Hosp. Med. Ctr., 521 F.3d
1097, 1104 (9th Cir. 2008) (“Dismissal under Rule
12(b)(6) is appropriate only where the complaint lacks
a cognizable legal theory or sufficient facts to support
a cognizable legal theory.”).
In deciding a 12(b)(6) motion, a court “may generally
consider only allegations contained in the pleadings,
exhibits attached to the complaint, and matters
properly subject to judicial notice.” Swartz v. KPMG
LLP, 476 F.3d 756, 763 (9th Cir. 2007); see
also Marder v. Lopez, 450 F.3d 445, 448 (9th Cir.
2006) (indicating that a court may consider a
document “on which the complaint ‘necessarily relies’
if: (1) the complaint refers to the document; (2) the
document is central to the plaintiff’s claim; and (3) no

24a
party questions the authenticity of the copy attached
to the 12(b)(6) motion”). The court must construe the
complaint in the light most favorable to the plaintiff,
accept all allegations of material fact as true, and
draw all reasonable inferences from well-pleaded
factual allegations. Gompper v. VISX, Inc., 298 F.3d
893, 896 (9th Cir. 2002); Sprewell v. Golden State
Warriors, 266 F.3d 979, 988 (9th Cir. 2001), amended
on denial of reh’g, 275 F.3d 1187 (9th Cir.
2001); Cahill v. Liberty Mutual Ins. Co., 80 F.3d 336,
337-38 (9th Cir. 1996). The court is not required to
accept as true legal conclusions couched as factual
allegations. Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009). Where a plaintiff facing a 12(b)(6) motion has
pled “factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged,” the motion should be
denied. Id.; Sylvia Landfield Trust v. City of Los
Angeles, 729 F.3d 1189, 1191 (9th Cir. 2013). But if
“the well-pleaded facts do not permit the court to infer
more than the mere possibility of misconduct, the
complaint has alleged – but it has not show[n] ... the
pleader is entitled to relief.” Iqbal, 556 U.S. at
679 (citations omitted).
III.

Analysis

A. First Claim for Relief - False Endorsement
in Violation of 15 U.S.C. § 1125(a)(1)(A)
Plaintiff’s first cause of action alleges a claim for false
endorsement
in
violation
of 15
U.S.C.
§
1125(a)(1)(A) against all Defendants. See TAC ¶ 115130. Defendants move to dismiss that claim. See MTD

25a
at 2. Plaintiff admits that this claim is precluded but
has included it as part of the TAC to preserve the
claim for appeal. Opp’n at 13. The Court, therefore,
would dismiss this claim with prejudice.
B. Second Claim for Relief - False
Advertising in Violation of 15 U.S.C. §
1125(a)(1)(B)
Plaintiff’s second cause of action alleges a claim for
false advertising in violation of 15 U.S.C. §
1125(a)(1)(B) against all Defendants. See TAC ¶ 142171. Defendants move to dismiss this claim. See MTD
at 2. Defendants argue that Plaintiff’s claim fails for
several reasons. Defendants assert that the Episode
and related promotional materials are “expressive
works” and do not constitute “commercial
speech.” See id. at 12. Relatedly, Defendants argue
that Plaintiff has failed to plead facts sufficient to
overcome the two-prong test of Rogers v. Grimaldi,
875 F.2d 994 (2nd Cir. 1989), as adopted by the Ninth
Circuit in Brown v. Elec. Arts, Inc., 724 F.3d 1235,
1239 (9th Cir. 2013). See id. at 1. Therefore,
Defendants claim that the Episode and related
advertising are protected First Amendment speech
not subject to Lanham Act claims. See id. at 7.
Finally, Defendants argue that Plaintiff has not
alleged facts which would establish statutory
standing to assert a false advertising claim under the
Lanham Act. See id. at 16. Plaintiff responds by
raising several assertions. First, she contends that the
series’
advertisements
are
commercial
speech. See TAC ¶ 149; Opp’n at 17-20. Second,

26a
Plaintiff argues that the content and advertisements
for the Episode explicitly mislead consumers as to
content, and therefore are not protected under the
Rogers test. See id. at 14; TAC ¶ 164. As to standing
Plaintiff asserts that she falls within the “zone of
interest” of the Lanham Act and that her reputational
injury was proximately caused by Defendants’ actions,
as required by Lexmark Int'l, Inc. v. Static Control
Components, Inc., 572 U.S. 118 (2014). See Opp’n at
20-24.
1. Standing
The Court will begin its analysis with the primary
consideration of whether Plaintiff has standing to
assert a claim for false advertising under the Lanham
Act. There is no question that Plaintiff has Article III
standing, nor does any party make that
argument. See Lexmark,
572
U.S.
at
125 (Constitutional minimum standing requires a
plaintiff to have suffered or be imminently threatened
with a concrete and particularized “injury in fact”
fairly traceable to the challenged action and
redressable by a favorable judicial decision.).
Defendants assert that Plaintiff has not alleged facts
to sufficiently plead statutory standing under the
Lanham Act. To assert statutory standing for a false
advertising claim, a plaintiff must come within the
“zone of interest” protected by the Lanham Act and
must allege an injury proximately caused by
Defendants’ alleged illegal conduct. See id. at 129-32.

27a
To come within the zone of interest for a false
advertising suit under the Lanham Act a plaintiff
“must allege an injury to a commercial interest in
reputation or sales.” Assessing the facts alleged in the
light most favorable to Plaintiff, this requirement has
been met. Plaintiff alleges that Defendants’ “false
statements” contained in advertising for the Episode
have harmed her reputation, thereby diminishing the
“desirability of Dickinson’s appearance on other
media projects, and her $75,000 appearance fee
value.” See Opp’n at 21; TAC ¶ 152.
A plaintiff suing under § 1125(a) typically must show
“economic or reputational injury flowing directly from
the deception wrought by the Defendants’
advertising.” Plaintiff’s alleges that the “false
narrative” perpetuated by Defendants in the Episode
deceived consumers into believing that Plaintiff is
unprofessional, and thus diminished the value of her
celebrity brand. See TAC ¶ 152(c)-(f). Whether
Plaintiff’s allegations meet this standard is a closer
call. Plaintiff seems to argue that the advertising for
the Episode and Series perpetuated the “false
narrative” that the Series portrays a “true story,” and
thus consumers to believe that the allegedly scripted
scenes portraying her in an unprofessional light were
in
fact
representative
of
Plaintiff’s
true
character. Id. ¶ 148. But Plaintiff fails to allege facts
showing that any of the alleged false advertisements,
rather than the content of the episode itself,
were themselves the cause of her reputational
injury. Id. ¶ 152 (a)-(f). In the TAC Plaintiff alleges
that she “has been or is likely to be injured as a result
of the false advertising.” Id. ¶ 152. However, all of the

28a
facts Plaintiff alleges to support this legal conclusion
relate to the content of the Episode itself, not the
advertising for the episode. Therefore, the Court finds
that Plaintiff has not alleged that false advertising by
Defendants was the proximate cause of her injury. See
Lexmark, 522 U.S. at 132-34. As such, the Court
would find that Plaintiff has not alleged facts to allow
statutory standing for a false advertising claim under
the Lanham Act. However, it is possible that Plaintiff
could assert factual allegations to remedy this
deficiency, so the Court will consider the other
arguments Defendants’ assert in their MTD related to
Plaintiff’s second claim for relief.
2. Commercial Speech
False advertising is only actionable under the
Lanham Act’s False Advertising provisions where
plaintiffs allege false or misleading representations in
“commercial advertising or promotion.” 3 15 U.S.C. §
1125(a)(1)(B). Speech is generally considered
“commercial” when it “does no more than propose a
commercial
transaction.” Hoffman
v.
Capital
Cities/ABC, Inc., 255 F.3d 1180, 1184 (9th Cir. 2001)
(quoting Bolger v. Youngs Drug Prod’s Corp., 463 U.S.
60, 66 (1983). Plaintiff argues that advertisements for
the Episode constitute commercial speech based on
the Supreme Court’s guidance in Bolger because the
alleged speech: (1) is an advertisement; (2) makes
reference to a specific product, and (3) Bravo TV has
As noted in Lexmark, 522 U.S. at 122: “Section 1125(a) thus
creates two distinct bases of liability: false association, §
1125(a)(1)(A), and false advertising, § 1125(a)(1)(B).”
3

29a
an
economic
motivation
communication. See Opp’n at 18.

for

the

In Bolger, the court was considering pamphlets
advertising contraceptives, which also contained
information of public interest, such as discussions of
family planning. See Bolger, 463 U.S. at 68. The facts
of this case are distinguishable. Here, the issue is not
that the advertisements contain both promotional and
non-promotional speech, it is that the advertisements
are promoting expressive works. Plaintiff depends
heavily on Charles v. City of Los Angeles, 697 F.3d
1146 (9th Cir. 2012) to support her argument that
the Bolger factors should be dispositive. See Opp’n at
18-19. In Charles, the Ninth Circuit held that a
billboard for E! News containing only images of the
hosts and the name of the program, with no other
message was commercial speech. Charles, 697 F.3d at
1152. The court in Charles, however, made clear that
its holding, related to regulatory restrictions on
billboard advertising and did not extend to private
suits
over
advertisements
for
expressive
works. See id. at 1155 (“The principle unifying the
exceptions to the commercial speech doctrine for
advertisements for protected works is the need to
protect advertisers from tort actions that would
otherwise threaten the ability of publishers to
truthfully promote particular works.”). For private
actions, such as tort suits, advertisements that are
“adjunct” to a protected work are entitled to the same
immunity from as the underlying work. See id. This
exception clearly applies to the alleged false
advertisements in this litigation. All of the
advertisements that Plaintiff cites to in her complaint

30a
are clips from the Episode itself, a few with very short
textual descriptions. See TAC at 145(c)-(g). These are
clearly adjunct to the protected work, and therefore
would be considered non-commercial speech for the
purposes of an action under the Lanham Act.
3. Rogers v. Grimaldi Two-Factor Test
Because the Court would find that both the Episode
and alleged promotional content are non-commercial
expressive works, it will apply the Rogers test to
determine whether the First Amendment bars
Plaintiff’s false advertising claim under the Lanham
Act. See generally Rogers, 875 F.2d 994. As stated
in Gordon v. Drape Creative, Inc., 909 F.3d 257, 26061 (9th Cir. 2019):
We use the Rogers test to balance the competing
interests at stake when a trademark owner claims
that an expressive work infringes on its trademark
rights. The test construes the Lanham Act to apply to
expressive works “only where the public interest in
avoiding consumer confusion outweighs the public
interest in free expression.” [875 F.2d] at 999. “[T]hat
balance will normally not support application of the
Act, unless the [use of the mark] has no artistic
relevance to the underlying work whatsoever, or ...
explicitly misleads [consumers] as to the source or the
content of the work.” Id.
Under the Rogers test, “[a]n artistic work’s use of a
trademark that otherwise would violate the Lanham
Act is not actionable unless [1] the [use of the mark]

31a
has no artistic relevance to the underlying work
whatsoever, or, [2] if it has some artistic relevance,
unless [it] explicitly misleads as to the source or the
content of the work.” E.S.S. Entm’t 2000, Inc. v. Rock
Star Videos, Inc., 547 F.3d 1095, 1099 (9th Cir.
2008) (citation and internal quotation marks
omitted). Courts have applied this test to expressive
works in cases alleging trademark infringement, false
endorsement, and false advertising claims arising
under the Lanham Act. See e.g. Gordon 909 F.3d
257 (alleging infringement based on the unauthorized
use of trademarked catchphrases on greeting
cards) 4; Brown v. Elec. Arts, Inc., 724 F.3d 1235, 1241
(9th Cir. 2013) (applying Rogers test to false
endorsement claim).

At the hearing, Plaintiff's counsel noted that the Circuit
in Gordon remanded the case back to the district court for a
determination on the Rogers factors. If that observation was
raised to suggest that this Court should conduct further
proceedings as to that issue, it is rejected. The present case is
very different from Gordon. Indeed, as held in Gordon:

4

The Rogers test is not an automatic safe harbor for any
minimally expressive work that copies someone else's mark.
Although on every prior occasion in which we have applied the
test, we have found that it barred an infringement claim as a
matter of law, this case presents a triable issue of fact.
Defendants have not used Gordon's mark in the creation of a
song, photograph, video game, or television show, but have
largely just pasted Gordon's mark into their greeting cards. A
jury could determine that this use of Gordon's mark is explicitly
misleading as to the source or content of the cards.
909 F.3d at 261.

32a
Under the first prong of the Rogers test, “only the use
of a trademark with ‘no artistic relevance to the
underlying work whatsoever’ does not merit First
Amendment protection. In other words, the level of
relevance merely must be above zero.” E.S.S., 547
F.3d at 1100. “A mark that has no meaning beyond its
source-identifying function is more likely to be used in
a way that has ‘no artistic relevance to the underlying
work whatsoever,’ [citation] because the work may be
‘merely borrow[ing] another’s property to get
attention,’ [citation].” Id. at 1198 (quoting Mattel, Inc.
v. MCA Records, Inc., 296 F.3d 894, 902 (9th Cir.
2002) and citing Dr. Seuss Ents., L.P. v. Penguin
Books USA, Inc., 109 F.3d 1394, 1401 (9th Cir. 1997)).
Courts have held that the use of a celebrity’s name
and/or likeness was artistically relevant to expressive
works that included that celebrity’s name, image,
and/or likeness. See Brown, 724 F.3d at 1243-45,
1248 (holding that “the likeness of a great NFL player
is artistically relevant to a video game that aims to
recreate NFL games.”); ETW Corp. v. Jireh Publ’g,
Inc., 332 F.3d 915, 937 (6th Cir. 2003) (holding that
“the presence of [Tiger] Woods’s image in [a golf
painting] does have artistic relevance to the
underlying work.”).
The Court would find that the inclusion of Plaintiff’s
likeness, image, and name in the Episode, and
concomitant promotional materials, even if included
without her consent, bore artistic relevance above
zero. From the Court’s review of the Episode, part of
the Episode focused on the Los Angeles Fashion Show,
and a significant sub-plot included the narrative that
Plaintiff
stole
the
romper
earmarked
for

33a
Gharachedaghi. See generally Hwang Decl. Ex. 1 (the
Episode). Because of Plaintiff’s role in that narrative,
false or not, the use of Plaintiff’s name and likeness
are artistically relevant to the Episode. In addition,
the Opposition does not seem to meaningfully dispute
artistic relevance. See generally Opp’n. Therefore, the
Court would find that Plaintiff does not overcome the
first prong of the Rogers test.
Plaintiff’s complaint appears to focus on the second
prong of the Rogers test, alleging in particular, that
the advertising for the Series and the Episode mislead
as to content. See generally id. Plaintiff’s accusations
rest upon two basic assertions. First, Plaintiff alleges
that advertising for the series in general is misleading
in that it markets the show as a “docuseries” rather
than scripted television. See TAC ¶ 73-91. A title or
advertisement for an expressive work will be
misleading as to content when it explicitly deceives
consumers as to the content of the underlying
work. See Parks v. LaFace Records, 329 F.3d 437, 458459 (6th Cir. 2003) (“Where a title with at least some
artistic relevance to the work is not explicitly
misleading as to the content of the work, it is not false
advertising under the Lanham Act.”). Taking
Plaintiff’s complaint at face value, it is possible that
Plaintiff could prove that the advertisements
promoting the Series as a “true story” are misleading
as to content. Those allegations, however, are not
enough to overcome the second prong of
the Rogers test. The test is not whether any
advertisement is misleading, it is whether
Defendants’ use of Plaintiff’s mark misleads
consumers as to the source or content of the

34a
work. Brown, 724 F.3d at 1239. Plaintiff’s mark has
no bearing on whether or not Bravo advertises their
show as a scripted series or reality television.
Therefore, Plaintiff’s contention fails.
Plaintiff also alleges that the advertisements for the
Episode explicitly mislead as to the content of the
Episode itself. Even viewing the facts alleged in the
light most favorable to Plaintiff, this argument fails.
The advertisements that Plaintiff points to in the TAC
are all clips of the Episode itself. A clip of a television
episode could not possibly mislead as to the content of
the episode, as it is itself a portion of the content. Only
two of the alleged advertisements contain any speech
other than the actual audio of the Episode (or closed
captioning). 5 The Clip 1 teaser includes the following
descriptive statement: “Did Janice Dickinson Just
Steal GG’s Look?! Evidently she took the outfit GG
was supposed to wear on the runway and GG is pissed
....” TAC ¶103. These are not explicitly misleading
statements. First, neither is an equivocal statement.
The first is a question, and the second begins with
“evidently.” Furthermore, both accurately preview the
controversy portrayed on the Episode, whether the
controversy itself was contrived by Defendants or
not. See generally Episode. The Clip 2 teaser also
contains a short description, saying: “See GG’s Carrie
Bradshaw Moment on the Runway S6/EP3: Luckily
she recovered from nearly tripping. (Did we mention
Janice Dickinson makes an appearance?).” TAC ¶105.
The Court does not consider YouTube videos or new
publications related to the Episode to be actionable advertising
on the part of Defendants who did not post such materials.
5

35a
This is also not a misleading statement. Plaintiff does
not deny that she appeared in the Episode. See
generally id. Therefore, the Court would find that
Plaintiff has not alleged any facts which could
overcome prong two of the Rogers test.
Based upon the above analysis, the Court would
dismiss Plaintiff’s federal trademark/ Lanham Act
causes of action with prejudice. Plaintiff has alleged
the facts related to the Series, the Episode, and its
promotional materials in great detail in the TAC, and
accepting those allegations as true, they establish that
the Episode and concomitant advertisements come
within the scope of First Amendment protection. At
the hearing, Plaintiff was allowed to address if she
could overcome that protection to state a viable
federal claim under 15 U.S.C. § 1125(a)(1)(B) but
failed to do so.
C. Third Claim for Relief - Dilution in
Violation of 15 U.S.C. § 1125(c) Against All
Defendants
In the third cause of action Plaintiff alleges a claim for
dilution in violation of 15 U.S.C. § 1125(c) against all
Defendants. See TAC ¶ 172-194. Defendants move to
dismiss this claim. See MTD at 2. Defendants argue
that Plaintiff’s claim fails for three reasons. To start,
Defendants allege that Plaintiff’s third claim fails
because it involves non-commercial speech and is
barred by Rogers two-factor test. The Federal
Trademark Dilution Act does not provide a remedy for
“noncommercial use of a mark.” 15 U.S.C. §

36a
1125(c)(3)(C). As discussed at length in the Court’s
analysis of Plaintiff’s second claim for relief, the Court
would find that the Episode and adjunct
advertisements are not commercial speech.
Furthermore, the Court’s Rogers test analysis related
to Plaintiff’s 15 U.S.C. § 1125(a)(1) claims is equally
applicable here. Therefore, the Court would also find
that Plaintiff has not stated facts to overcome
the Rogers test in relation to their third claim for
relief.
Defendants also argue that Plaintiff’s claims for
trademark dilution are barred by the nominative fair
use doctrine. See id. at 14-16. Plaintiff responds that
a determination as to nominative fair use is fact
intensive and cannot be resolved at this stage. The
Court would decline to rule on Defendants’
nominative fair use defense, given that Plaintiff’s
dilution claim fails to sufficiently plead the cause of
action on other grounds.
At the hearing, Plaintiff was allowed to argue on the
issue and the Court is not persuaded that its ruling
should be changed.
D. Fourth Claim for Relief - Violation of Cal.
Business & Professions Code §§ 17200, et.
seq., Against All Defendants
Because the Court dismisses all of Plaintiff’s federal
claims with prejudice, it would decline to exercise
supplemental jurisdiction over Plaintiff’s fourth claim
for relief under California’s unfair competition

37a
law. 6 See United Mine Workers of Am. v. Gibbs, 383
U.S. 715, 726 (1996) (“Certainly, if the federal claims
are dismissed before trial, even though not
insubstantial in a jurisdictional sense, the state
claims should be dismissed as well.). As such, the
Court would dismiss claims four through nine without
prejudice.
IV.

Conclusion

For
the
foregoing
reasons,
the
Court
would DISMISS the first three federal causes of
action contained in the TAC without leave to amend;
and it would decline to exercise supplemental
jurisdiction over the remaining state claims and
dismiss them without prejudice.

The court would also decline to exercise supplemental
jurisdiction over the state law claims alleged as the fifth, sixth,
seventh, eighth and ninth causes of action in the TAC, but not
addressed in the MTD.
6

